HHS/OIG, Audit - "Review of Medicaid Payments for Outpatient Services and Prescription Drugs Provided to Incarcerated Recipients in the State of Massachusetts," (A-01-02-00008)
Department
of Health and Human Services
"Review of Medicaid Payments for Outpatient Services and Prescription
Drugs Provided to Incarcerated Recipients in the State of Massachusetts,"
(A-01-02-00008)
August 30, 2002
Complete Text of Report is available in PDF format
(399 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the Massachusetts Division
of Medical Assistance (DMA) used Medicaid funds to pay for prescription drugs
and other (non-inpatient/long term care) health care services provided to inmates.
We reviewed a random sample of Medicaid Claims from a database of claims paid
on behalf of individuals who had been identified as incarcerated at some time
during our audit period.  We found that with few exceptions, the services
were not provided during the periods of incarceration.  Accordingly, we
concluded that DMA procedures reasonably preclude Medicaid payments for services
for individuals who are incarcerated.